CERTIFICATE OF SERVICE
NO. TBD
Ryan Pankoe
Petitioner,
v.
Laura Pankoe
Respondent.
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the Ryan
Pankoe Petition for Writ of Certiorari, by mailing three (3) true and correct copies of the same
by USPS Priority mail, postage prepaid for delivery to the following addresses:
Shannon S. Piergallini-Smith
Smith & Smith LLC
515 W. Linden St. FI. 1
Allentown, PA 18101-1426
(610) 437-2300
Counsel for Laura Pankoe

Josh Shapiro
Pennsylvania Attorney General
Strawberry Square
Harrisburg, PA 17120
(717) 787-3391
info @ attorneygeneral.gov
Counsel for State of Pennsylvania

Lucas 'DeDeus

October 20, 2020
SCP Tracking: Pankoe-79 Maple Lane-Cover White

